Report No. D-2009-107                    September 28, 2009




              DOD Enterprise Staffing Solution
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
ADA                           Antideficiency Act
BCA                           Business Case Analysis
CCA                           Clinger-Cohen Act
COTS                          Commercial Off-the-Shelf
CPMS                          Civilian Personnel Management Service
DBS                           Defense Business System
DBSMC                         Defense Business Systems Management Committee
DHRA                          Defense Human Resource Activity
DITPR                         Defense Information Technology Portfolio Repository
ESS                           Enterprise Staffing Solution
HR-BITS                       Human Resource Business, Information, and Technology
                              Solutions
IGCE                          Independent Government Cost Estimate
IRB                           Investment Review Board
O&M                           Operations and Maintenance
OPM                           Office of Personnel and Management
RDT&E                         Research, Development, Test, and Evaluation
SaaS                          Software as a Service
U.S.C.                        United States Code
                                INSPECTOR GENERAL
                               OEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DAIVE
                             ARLINGTON, VIRGINIA 22202-4704


                                                                           September 28, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUIS ITION,
                 TECHNOLOGY, AND LOGISTICS
              UNDER SECRETARY OF DEFENSE (COMPTROLLER)/DOD
                 CH IEF FINANCIAL OFFICER
              UNDER SECRETARY OF DENFENSE (PERSONNEL AND
                 READINESS)
              DlRECTOR, CIVILIAN PERSONNEL MANAGEMENT
                 SERVICE

SUBJECT: DOD Enterprise Staffing Solution (Rcport No. D-2009-107)


We arc providing this report for review and comment. We received comments from the
Office of the Unde r Secretary of Defense for Acquisition, Technology. and Logistics; the
Office of the Under Secretary of Defcnsc (Comptroller)lChief Financial Officer; and the
Civilian Personnel Management Service. All comments were considered in preparing the
final audit report.

000 Directive 7650.3 requires that all recommendations be resolved promptly. The Office
of the Under Secretary of Defense (Comptrollcr)lCh ief Financial Officer and the Civi lian
Personnel Management Service's commen ts were responsive. We requesllhat the Office of
the Under Secretary of Defense for Acquisition, Technology, and Logistics provide
additional comments on Recommendat ion 8.1 by October 28, 2009.

Please provide comments that conform to the requirements of 000 Directive 7650.3. If
possible, send your comments in electronic format (Adobe Acrobat file only) to
audacm@dodig.mi l. Copies of your comments must have the actual signature of the
authorizing official fo r your organization. We are unable to accept the I Signed I symbol in
place of the actual signature. If you arrange to send classified comments elec tronically, you
must send them over the SECRET lnternet Protocol Router Network (SIPRNET).

We appreciate the courtes ies extended to the staff. Please direct questions to me at (703)
604-920 I (DSN 664-920 I).




                                              Richard B. Jolliffe
                                              Assistant Inspector Gene ral
                                              Acqu isition and Contract Management
Report No. D-2009-107 (Project No. D2009-D000CF-0138.000)                  September 28, 2009


               Results in Brief: DOD Enterprise Staffing
               Solution
                                                         that may have impacted the Defense Business
                                                         System Management Committee certification
What We Did                                              decision.
We performed this audit as a response to three
allegations made to the Defense Hotline (see             CPMS internal controls were ineffective. We
Appendix B). To address the allegations, we              identified an internal control weakness in the
determined whether the Civilian Personnel                acquisition of the Enterprise Staffing Solution.
Management Service (CPMS) was in
compliance with applicable laws and regulations          On August 27, 2009, CPMS announced the
when purchasing the Enterprise Staffing                  cancellation of the Enterprise Staffing Solution
Solution for approximately $153 million. The             due to contractual issues.
Enterprise Staffing Solution is intended to be
used as a hiring tool that will accept, process,
evaluate, and refer resumes for internal and             What We Recommend
external staffing.
                                                               The Under Secretary of Defense
                                                                (Comptroller)/Chief Financial Officer
                                                                direct CPMS to initiate preliminary
What We Found                                                   reviews for the potential Antideficiency
We substantiated all three hotline allegations.                 Act violations identified.
CPMS officials committed potential                             The Acting Director, CPMS, require
Antideficiency Act violations, valued at                        financial personnel receive training with
approximately $8.3 million, by obligating funds                 focus on Antideficiency Act violations.
for the Enterprise Staffing Solution project                   The Under Secretary of Defense for
without proper certification; using operations                  Acquisition, Technology, and Logistics
and maintenance funds instead of research,                      USD(AT&L)issue specific guidance for
development, test, and evaluation funds; and                    the acquisition of software as a service.
obligating operations and maintenance funds for                The Acting Director, CPMS, assign
services contracted for and received in the fiscal              acquisition-certified personnel for the
year after the funds expired.                                   Enterprise Staffing Solution acquisition.
CPMS officials did not obtain DOD Component
Chief Information Officer confirmation of
                                                         Management Comments and
compliance with the Clinger-Cohen Act,                   Our Response
Division E of Public Law 104-106, that is                The Under Secretary of Defense for
required for all mission-critical or mission-            Acquisition, Technology, and Logistics did not
essential information technology systems.                agree with the recommendation; the Under
Further, CPMS officials did not adequately               Secretary of Defense (Comptroller)/Chief
                                                         Financial Officer and the Acting Director,
perform an analysis of alternatives that justified       CPMS, agreed with the recommendations. We
the decision to use software as a service                request comments from the Under Secretary of
alternative for satisfying the Enterprise Staffing       Defense for Acquisition, Technology, and
Solution project. Finally, CPMS officials                Logistics on Recommendation B.1 by
significantly understated the life-cycle costs           October 28, 2009. See recommendation table
made available to the Investment Review Board            on the back of this page.

                                                     i
Report No. D-2009-107 (Project No. D2009-D000CF-0138.000)         September 28, 2009

Recommendations Table
Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Under Secretary of Defense for   B.1
Acquisition, Technology, and
Logistics

Under Secretary of Defense                                  A.1
(Comptroller)/Chief Financial
Officer

Acting Director, Civilian                                   A.2, B.2
Personnel Management Service


Please provide comments by October 28, 2009.




                                          ii
Table of Contents

Introduction                                                                   1

      Objective                                                                1
      Background                                                               1
      Review of Internal Controls                                              3

Finding A. Funding for the DOD Enterprise Staffing Solution Initiative         4

      Management Comments on the Finding and Our Response                     10
      Recommendations, Management Comments, and Our Response                  11

Finding B. Acquisition of the DOD Enterprise Staffing Solution Initiative     13

      Management Comments on the Finding and Our Response                     20
      Recommendations, Management Comments, and Our Response                  20

Appendices

      A. Scope and Methodology                                                22
             Prior Coverage                                                   22
      B. Allegations                                                          23
      C. Clinger-Cohen Act Compliance                                         24

Management Comments

      Office of the Under Secretary of Defense for Acquisition, Technology,   25
              and Logistics
      Office of the Under Secretary of Defense (Comptroller)/Chief            26
              Financial Officer
      Civilian Personnel Management Service                                   28
Introduction
Objective
Our overall objective was to determine whether the Civilian Personnel Management
Service (CPMS) was in compliance with applicable laws and regulations for the
Enterprise Staffing Solution (ESS) project. Specifically, we examined the policies,
procedures, and internal controls to determine whether CPMS managed the project in
accordance with DOD Directive 5000.1, “The Defense Acquisition System,” and DOD
Instruction 5000.2, “Operation of the Defense Acquisition System”; if the correct
appropriations were used to fund the project; and whether CPMS followed Public
Law 108-375, “Ronald W. Reagan National Defense Authorization Act for Fiscal
Year 2005.” See Appendix A for discussion of the scope and methodology, and prior
coverage related to the objectives.

Background
This audit was performed in response to allegations made to the Defense Hotline (see
Appendix B). The allegations include potential violations of the Antideficiency Act
(ADA) and Division E of Public Law 104-106, the “Information Technology
Management Reform Act of 1996,” known as the Clinger-Cohen Act (CCA).
Specifically, the allegations state that obligated funds for the ESS purchase did not
receive the Defense Business Systems Management Council (DBSMC) certification as
required by the 2005 National Defense Authorization Act. Second, the allegations state
the misappropriation of operations and maintenance (O&M) funds that are being used
instead of research, development, test, and evaluation (RDT&E) funds to conduct
software test and evaluation. Third, the allegations say there were violations of the CCA
for the information technology modernization effort.

Civilian Personnel Management Service
CPMS supports the Under Secretary of Defense for Personnel and Readiness and the
Deputy Under Secretary of Defense (Civilian Personnel Policy) in planning and
formulating civilian personnel programs, providing policy support, functional
information management, and Department-wide civilian personnel administration
services for the Military Departments and Defense agencies. CPMS develops and
implements human resource management solutions that enable DOD to effectively
support the warfighter and the national security mission. Furthermore, CPMS delivers
comprehensive human resource support, solutions, and knowledge management. CPMS
is divided into 13 divisions with its own internal service responsibilities. Some of these
divisions include the Human Resource Business, Information, and Technology Solutions
(HR-BITS); Accountability and Evaluation; Investigations and Resolutions; Field
Advisory Services; and Joint Leader Development. More specifically, HR-BITS
develops state-of-the-art customer-focused technology and enterprise-wide solutions.
CPMS was established in 1993 to consolidate various common personnel management
functions previously performed by each of the DOD Components.



                                            1
Resumix Staffing Tool
DOD has used the Resumix staffing system as its enterprise automated civilian human
resources staffing tool since 1997. DOD Components maintain customized versions of
Resumix that are specific to their business processes. On February 22, 2005, Yahoo!/Hot
Jobs, the hosts of Resumix, announced that maintenance support and hosting services
would be terminated on February 28, 2006. Subsequently, in September 2005, Lucent
Technologies was awarded a maintenance contract (1 year plus 3 option years) to provide
support for Resumix. However, Resumix has become an unchangeable product since
Lucent Technologies does not own the source code; the application cannot be upgraded
or enhanced. Furthermore, Resumix has experienced a number of escalating system
issues such as the inability to keep pace with continuous technological enhancements and
security patches that have caused the application to become increasingly difficult to
maintain and operate. As a result, the Under Secretary of Defense for Personnel and
Readiness tasked CPMS officials to replace Resumix.

Enterprise Staffing Solution
In response to this tasking, the CPMS HR-BITS division spearheaded an effort to
transform the civilian staffing and recruitment processes across DOD through the
acquisition and implementation of a state-of-the-art ESS that is intended to improve
DOD’s ability to recruit and hire a highly capable, agile, diverse, and mission-ready
workforce. ESS will address current inefficiencies in the legacy system software
environment that include the difficulty of responding quickly to Federal and DOD human
resource initiatives and complying with security and technical requirements.

CPMS worked closely with DOD Military Departments, Fourth Estate (includes the
Office of the Secretary of Defense, Defense agencies, and the DOD field activities), and
the National Guard. A DOD-wide Lean Six Sigma Value Stream Analysis was
performed to prepare for the enterprise procurement effort and all DOD Components
participated in a multi-stage vendor evaluation. The evaluation results were subsequently
presented to DOD executive leadership and approval was granted to proceed with
development of a Pilot Program Management Plan.

Initial implementation of the pilot program is scheduled to occur at eight DOD
Components (Army, Navy, Air Force, National Guard, Defense Finance and Accounting
Service, Defense Logistics Agency, DOD Education Activity, and Washington
Headquarters Service). These pilot sites will be used to determine whether to proceed
with full deployment of ESS throughout DOD based on an analysis of performance
metrics that include improvements in categories of time, cost, and quality.

Specifically, ESS is intended to be used as a hiring tool that will accept, process,
evaluate, and refer resumes for internal and external staffing. The ESS tool will include a
job posting system, applicant notification system, and certificate issuing function. The
system will also automate a majority of the hiring process from creating and posting job
announcements through collecting applicant resumes and application materials; rating
and ranking applicants; and issuing hiring certificates. Finally, ESS will consolidate and
modernize current DOD hiring systems, provide seamless integration with other non-


                                            2
DOD services, and provide sufficient functionality and flexibility to meet the needs of all
DOD organizational entities.

CPMS procured requirement services through the U.S. Office of Personnel Management
(OPM) Training and Management Assistance Program for the acquisition and
implementation of the ESS solution. The Training and Management Assistance Program
was established as a reimbursable program within OPM in 1982, and provides a contract
vehicle for quick access to private-sector contractors with expertise in development and
implementation of learning and human capital solutions. The contract vehicle is a
multiple-award, indefinite-delivery, indefinite-quantity contract. The OPM contracting
officer awarded a task order under that multiple-award contract that covers the 6-month
pilot that could be expanded to include a base year and four 1-year options with a total
estimated cost of $153 million for the ESS project.

OPM competitively selected SRA International as one of the multiple-awardees to
provide the ESS services under the Training and Management Assistance Program. Avue
Technologies, a subcontractor to SRA, was chosen as the technology company for
supporting the ESS initiative pilot. The Avue “software as a service” (SaaS) solution is
being conducted in three phases. SaaS is a software deployment model where a provider
licenses an application to customers for use as a service on demand. SaaS vendors host
the application on their own servers or download the application to the client device.

The first phase in the ESS project is the configuration, testing, training, and limited use of
the Avue solution by some DOD Components. The second phase, which has not
occurred, will expand the system use to more than 70,000 DOD civilian employees at
41 sites across the country. The third phase, SRA/Avue partnership expansion, will cover
more than 700,000 DOD civilian positions upon the completion of a satisfactory pilot.


Review of Internal Controls
We determined that an internal control weakness in the acquisition of ESS existed at
CPMS as defined by DOD Instruction 5010.40, “Managers’ Internal Control (MIC)
Program Procedures,” January 4, 2006. No internal acquisition regulations existed to
ensure that program management officials are certified and that laws and DOD policy are
followed. Implementing Recommendation B.2 will improve acquisitions at CPMS. We
will provide a copy of this report to the senior official responsible for internal controls in
the Under Secretary of Defense for Personnel and Readiness Office.




                                              3
Finding A. Funding for the DOD Enterprise
Staffing Solution Initiative
CPMS management officials did not comply with appropriations law or DOD financial
management regulations for the acquisition of the ESS. Specifically, CPMS officials did
not adhere to the National Defense Authorization Act for Fiscal Year 2005 by failing to
obtain the Defense Business Systems Management Committee (DBSMC) certification for
funds. Furthermore, CPMS officials incurred other potential ADA violations of the
purpose statute and the bona fide needs rule. This occurred because financial
management officials misconstrued funding guidance. As a result, CPMS incurred three
potential ADA violations, valued at $8,311,491.

Background
Section 332, Public Law 108-375
Section 332, Public Law 108-375, “Ronald W. Reagan National Defense Authorization
Act for Fiscal Year 2005,” addresses system modernization. It states that funds
appropriated to DOD may not be obligated for a defense business system (DBS)
modernization that will have a total cost in excess of $1 million unless the approval
authority designated for the DBS certifies to the DBSMC established by section 186,
Public Law 108-375 that the DBS modernization is in compliance with the enterprise
architecture. Furthermore, the obligation of DOD funds for a business system
modernization in excess of the amount above that has not been certified and approved in
accordance with such subsection is a violation of section 1341(a)(1)(A), title 31, United
States Code (31 U.S.C. 1341).

Defense Business Systems Management Committee
In February 2005, DBSMC was chartered by DOD to oversee transformation within the
DOD Business Mission Area and to ensure that warfighter needs and priorities are met.
Specifically, the DBSMC sets business transformation priorities and recommends the
policies and procedures required to attain cross-Department, end-to-end interoperability
of DOD business systems and processes. The DBSMC also approves business systems
investment decisions and continually monitors schedule and milestone completeness,
costs and resources, performance metrics, and risks.

The DBSMC serves as the senior-most governing body overseeing the Business Mission
Area transformation and consists of the Deputy Secretary of Defense (Chair); Under
Secretary of Defense for Acquisition, Technology, and Logistics (Vice Chair);
Secretaries of the Military Departments and the heads of the Defense agencies; Under
Secretary of Defense (Comptroller); Under Secretary of Defense for Personnel and
Readiness; Vice Chairman of the Joint Chiefs of Staff; Commander, U.S. Transportation
Command; Commander, U.S. Joint Forces Command; Assistant Secretary of Defense for
Networks and Information Integration/DOD Chief Information Officer; and Director,



                                            4
Program Analysis and Evaluation (Advisory). Every month the DBSMC convenes under
the personal direction of the Deputy Secretary of Defense.

Investment Review Boards
Investment Review Boards (IRBs) support the decision making process by making
investment recommendations to the appropriate Certification Authority. Those
recommendations are eventually approved or disapproved by the DBSMC. The IRBs
oversee investment review processes for the business capabilities that support activities in
their designated areas of responsibility. Each IRB assesses modernization investments
relative to their impact on end-to-end business process improvements as documented in
the business enterprise architecture. The four IRBs (Human Resources Management;
Weapon System Lifecycle Management and Materiel Supply and Service Management;
Real Property and Installations Lifecycle Management; and Financial Management) have
reviewed each candidate system investment and have recommended certification for
systems.

Criteria
DOD Financial Management Regulation Appropriation Guidance
Annual appropriation acts define the uses of each appropriation and set specific timelines
for use of the appropriations. The DOD Financial Management Regulation, volume 2A,
chapter 1, “Budget Formulation and Presentation,” provides guidelines on the most
commonly used DOD appropriations for determining the correct appropriation to use
when planning acquisitions.

Research, Development, Test, and Evaluation
DOD organizations fund development, test, and evaluation requirements, including
designing prototypes and processes, with RDT&E appropriations. DOD organizations
use RDT&E funds to develop major system upgrades, to purchase test articles, and to
conduct developmental testing and/or initial operational testing and evaluation before the
DOD organizations accept systems. In general, RDT&E funds should be used for all
developmental activities involved with new systems or major upgrades. RDT&E funds
are available for obligation for 2 years.

Operations and Maintenance
Expenses incurred in continuing operations and current services are funded with
O&M appropriations. The Under Secretary of Defense (Comptroller) considers all
modernization costs under $250,000 to be expenses, as are one-time projects such as
developing planning documents and conducting studies. O&M funds are available for
obligation for 1 year.

Antideficiency Act Violations
The ADA is a set of laws that allows Congress to exercise its constitutional control of the
public purse. The ADA is codified in a number of sections of title 31 of the United States
Code (such as 31 U.S.C 1341, 1342, and 1517). Section 1341, title 31, United States


                                             5
Code (31 U.S.C. 1341), “Limitations on Expending and Obligating Amounts,” states “an
officer or employee of the United States Government . . . may not (A) make or authorize
an expenditure or obligation exceeding an amount available in an appropriation or fund
for the expenditure or obligation” or “(B) involve either Government in a contract or
obligation for the payment of money before an appropriation is made unless authorized
by law.” Violations of the ADA are subject to administrative and penal sanctions of fines
not more than $5,000 and imprisonment for not more than 2 years, or both.

Use of Government Funds
DOD activities transferred funds through military interdepartmental purchase requests to
CPMS for the acquisition of the ESS. Thereafter, CPMS and OPM entered into an
interagency agreement for contract support from OPM on the ESS acquisition. However,
CPMS did not adhere to Federal appropriation law and DOD financial guidance during
the acquisition of the ESS. Therefore, CPMS may have incurred three potential ADA
violations due to the failure to obtain DBSMC certification, use correctly appropriated
funds, and ensure there was a bona fide need for purchase.

Certification Approval
CPMS officials failed to obtain DBSMC certification prior to obligation of FY 2007 and
FY 2008 funds for the ESS acquisition. Section 2222, title 10, United States Code
(which was added to the United States Code by section 332, Public Law 108-375,
“Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005”) requires
funds used for a DBS modernization in excess of $1 million to receive approval authority
from the DBSMC. Furthermore, section 332, Public Law 108-375 defines the DBS as an
information system operated by, for, or on behalf of DOD, including financial systems,
mixed systems, financial data feeder systems, and information technology and
information assurance infrastructure used to support business activities, such as human
resource management. Section 332, Public Law 108-375 also defines DBS
modernization as the acquisition or development of a new DBS, or any significant
modification or enhancement of an existing DBS (other than what is necessary to
maintain current services). The Office of the Secretary of Defense delegates
responsibility for review of existing DBS modification or enhancement of an operation
system that will have a total cost in excess of $1 million. Finally, the law states that the
obligation of funds for a business modernization system over $1 million that has not been
certified is a violation of 31 U.S.C. 1341(a)(1)(A). Prior to obligating any funds for a
business system modernization, DOD activities must obtain IRB certification and
DBSMC approval of that certification in accordance with section 332, Public Law 108-
375.

CPMS officials should have obtained certification prior to obligation of DOD funds
totaling $4,236,325 in FY 2008. On March 11, 2008, and April 21, 2008, the Chief of
System Management and Program Administration, HR-BITS, informed the Executive
Director of HR-BITS (now Acting Deputy Director, CPMS) that the DBSMC
certification was essential for SaaS acquisition because CPMS exceeded the $1 million
threshold for the DBS. Upon further discussion with the Defense Human Resource
Activity (DHRA) General Counsel, CPMS realized that certification was necessary for


                                             6
the ESS acquisition. A DHRA official informed CPMS that the acquisition of a service
does not mean that a system is not being acquired. The DHRA General Counsel also
stated that if it should later be determined that failure to obtain DBSMC certification led
to an ADA violation, it was unintentional and the individuals were acting with the highest
intent. However, the DOD Financial Management Regulation, volume 14, chapter 3,
dated February 2008, states that “upon learning of or detecting a possible violation of the
Antideficiency Act . . . the individual concerned shall, within 10 working days, report the
possible violation to his or her chain of command.”

CPMS officials should have taken more appropriate steps early on in the acquisition
process when deciding whether the National Defense Authorization Act for FY 2005
would apply to this purchase. DHRA General Counsel legal advice was not sought until
after DOD funds were sent to OPM. CPMS actions during the DBS acquisition that
exceeded the $1 million threshold for DBSMC certification could have resulted in an
ADA violation (31 U.S.C. 1341[a][1][A]). Subsequently, CPMS managed to obtain
DBSMC certification on August 21, 2008.

Incorrect Appropriation
CPMS officials may have also violated the purpose statute (31 U.S.C. 1301) by using
O&M funds instead of RDT&E funds when contracting for the ESS. The ESS effort to
improve the DOD civilian staffing and recruiting process primarily used O&M funds for
the Pilot Management Plan and RDT&E funds for the Defense Civilian Personnel Data
System interface that is required to support the flow of employee and position data
between DOD and the contractor system. CPMS personnel said that O&M funds were
used for the purchase due to the contractor system only being “tweaked” by the
contractor. CPMS officials added that they did not have expanded authority 1 for the use
of O&M funds and the decision to use O&M funds for the ESS project was made at an
ESS executive committee meeting that normally includes DOD Component attendees
(Army, Navy, Air Force, National Guard, Defense Finance and Accounting Service,
Defense Logistics Agency, Department of Defense Education Activity, Washington
Headquarters Service, and the CPMS). Though CPMS officials were unable to provide
executive committee meeting minutes related to funding discussions, CPMS personnel
stated that O&M funds were used because DOD was contracting for a service, not
obtaining ownership of a system. However, a CPMS official stated that a DOD
Component did offer RDT&E funds originally. CPMS officials turned the Component
down. CPMS officials compared the ESS acquisition to obtaining Microsoft Office
where only minor configuration changes are made, not significant changes to source code
that led to development. Moreover, a DHRA Associate General Counsel provided his
opinion that the purchase was for a commercial off-the-shelf (COTS) item that only
required minor tweaking that used RDT&E funds, totaling $512,082, for the minor
adjustments (Defense Civilian Personnel Data System interface) and O&M funds for all
other requirements.



1
Certain organizations involved in research and development are permitted to use their appropriated
O&M funds for RDT&E purposes.


                                                    7
According to 31 U.S.C. 1301(a), “appropriations shall be applied only to the objects for
which the appropriations were made except as otherwise provided by law.” The
DOD Financial Management Regulation, volume 2A, chapter 1, says “items that require
engineering design, integration, test, or evaluation effort shall be procured with RDT&E
funds in sufficient numbers to support such effort.” Furthermore, end items that require
design and development in order to accept the COTS or non-development item should be
budgeted with RDT&E funds, for the entire effort. After the initial use of RDT&E funds
for the design or develop of major changes or improvements to meet the Government
requirements for the service, the leased service will ultimately be financed with
O&M funds. However, if the item had been purchased from a commercial source
without alteration or modification, the purchase would be funded in either the
procurement or O&M appropriation. Additionally, the Under Secretary of Defense
issued a July 16, 2007, memorandum, “Human Resource Management Investment
Review Board Guidance for Use of Operations and Maintenance Funds for Business
System Modernization,” which says that O&M money should not be inappropriately
spent on development, modernization, and/or procurement. Instead, O&M funds should
be used for continuing operations and current services of business systems.

Though CPMS officials claim they are acquiring a service from a contractor, evidence
shows that CPMS is actually attaining services from a contractor system that required
interface modifications to meet their needs. A CPMS official reported that the interface
is close to completion; however, the Avue Validation Control Report, dated
February 2, 2009, identified approximately 200 system functionality deficiencies that are
still in the process of being resolved. One example of the deficiencies listed involved
development work for the National Security Personnel System. These deficiencies were
still pending and delayed deployment of the ESS Pilot Management Plan that was
originally scheduled on May 1, 2008. The ESS pilot launch was next expected for
June 2008; another delay pushed the scheduled launch to February 28, 2009, and then to
May 2009. In July 2009, CPMS said there was no new launch date due to a contract
dispute. Finally, on August 27, 2009, CPMS announced the cancellation of the ESS
Pilot. CPMS added that steps are in progress to determine an alternative solution.
According to a CPMS official, the contractor was supposed to resolve 90 percent of 330
system patches by February 15, 2009. As noted above, the contractor was still addressing
approximately 200 deficiencies on February 2, 2009. Though CPMS officials compared
the ESS acquisition to obtaining Microsoft Office where only minor configuration
changes are made, the number of changes and length of time brings into question whether
the requirement involves minor tweaks or significant changes. As far as the interface,
modifications required the use of RDT&E funds for the system. Thus the DOD Financial
Management Regulation, volume 2A, chapter 1, states that end items that require design
and development in order to accept the COTS use RDT&E funds. Upon the completion
of modifications to the end item, O&M funds should be used for continuing operations.

Bona Fide Needs
CPMS officials potentially violated the bona fide needs rule (31 U.S.C 1502[a]) that
could lead to an ADA violation (31 U.S.C. 1341 [a][1]) for the ESS purchase, valued at
approximately $153 million. Specifically, DOD authorities may have violated the bona


                                           8
fide needs rule by using incorrect annual O&M appropriations to fund the purchase of
services that were contracted for and received in the year after the appropriation expired.
For instance, CPMS officials sent FY 2007 O&M funds on September 12, 2007, totaling
approximately $4,452,347, to OPM for the ESS acquisition. A CPMS budget official
stated that the funds for the requirement were obligated upon the completion of the
interagency agreement between CPMS and OPM. Furthermore, the CPMS budget
official stated that the use of FY 2007 funds for the FY 2008 requirement was allowed
since the interagency agreement was used to obligate funds in FY 2007.

The CPMS position conflicts with the October 16, 2006, Acting Deputy DOD Chief
Financial Officer, Office of the Under Secretary of Defense (Comptroller), “Non-
Economy Act Orders” memorandum that states “an amount shall be recorded as an
obligation only when supported by documentary evidence” that the order serves a bona
fide need arising in the fiscal year that the appropriation is available for obligation and
execution occurs before the end of the period of availability for new obligation of the
appropriation. Though funds were sent over in FY 2007, the contractor selection did not
occur until FY 2008. In addition, the contract for the ESS acquisition was not awarded
until February 22, 2008. Use of FY 2007 funds to satisfy a FY 2008 requirement does
not meet the intent of the bona fide needs rule and resulted in a potential ADA violation.
Funds that are past their period of availability cannot be used to finance new require-
ments and must be deobligated by DOD officials.


CPMS Financial Personnel Actions
CPMS financial management officials misapplied funding guidance that led to three
potential ADA violations. As already mentioned, CPMS officials failed to obtain
DBSMC certification prior to obligation of funds and misused appropriated funds.
CPMS officials’ opinion that they could use O&M funds for an SaaS acquisition, which
they later determined was a system, and their position that funds were obligated when the
interagency contract was signed, demonstrates the need for financial management
officials to receive training that clarifies the use of funds. Also noted earlier, the Chief of
System Management and Program Administration informed the Executive Director, HR-
BITS, that the DBSMC certification was essential for the acquisition. Furthermore, the
Chief stated that the ESS project should include RDT&E funds for the requirement.
Despite this, actions were not taken to address the discrepancies until a complaint was
made to the DOD Hotline. Establishing a team approach that involves adequately trained
finance officers, program officials, warranted contracting officers, and legal staff early in
the procurement process could improve business judgment and reduce the possibility of
incurring potential ADA violations. DOD officials should ensure funding guidance is
being correctly followed prior to CPMS sending DOD funds to non-DOD agencies.

Conclusion
CPMS management officials’ acquisition of the ESS system failed to comply with
appropriations law and DOD procurement regulations. CPMS officials did not adhere to
the 2005 National Defense Authorization Act requirements by obtaining DBSMC
certification for the acquisition of the ESS. Furthermore, CPMS officials potentially


                                               9
violated the purpose statute and bona fide needs rule that could result in potential ADA
violations. Abrupt planning and insufficient reviews early in the acquisition process
resulted in these funding issues. CPMS officials should have taken steps to become more
familiar with interagency acquisitions, obligation of funds requirements, and legal
restrictions placed on appropriations. Seeking advice from and coordinating with DOD
contracting officers and DHRA General Counsel earlier on in the acquisition process and
complying with funding guidance for acquisitions would better assist CPMS officials to
properly use Government funds and reduce the possibility of incurring potential ADA
violations. DOD officials’ funding reviews should be completed prior to CPMS sending
DOD funds to non-DOD agencies. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer should direct DHRA to conduct preliminary reviews to determine
whether ADA violations occurred due to CPMS use of funds.


Management Comments on the Finding and Our
Response
Civilian Personnel Management Service Comments
The Acting Director provided comments for CPMS. First, the Acting Director stated that
the OPM contracting officer awarded the contract for the pilot that could be expanded to
support the DOD civilian enterprise workforce. Second, the Acting Director disagreed
that CPMS officials did not adhere to the National Defense Authorization Act for Fiscal
Year 2005 by failing to obtain the DBSMC certification of funds. The Acting Director
further stated these matters will be addressed in the preliminary review now underway to
determine whether the improper use of Government funds for the ESS initiative resulted
in ADA violations. Finally, the Acting Director stated that the audit report does not
provide a basis for the statement that CPMS officials were offered RDT&E funds by
DOD Components. The Acting Director said that CPMS management officials are not
aware of any Components offering RDT&E funding for the effort, therefore CPMS
disagrees with the statement.

Our Response
We agree that the OPM contracting officer only awarded the pilot; therefore we corrected
the sentence to reflect that the contract can be expanded to include a base year and four
1-year options. We also agree that the preliminary finding review will determine whether
potential ADA violations occurred for the purchase; however, we stand by the report
statement that CPMS officials did not adhere to the National Defense Authorization Act
for Fiscal Year 2005 by failing to obtain the DBSMC certification prior to obligation of
funds. As noted in the report, the law requires that the obligation of funds for a business
modernization system over $1 million that has not been certified is a violation of
31 U.S.C 1341 (a)(1)(A). CPMS did not obtain IRB certification and DBSMC approval
of that certification prior to obligating funds for the defense business system
modernization, as a result potentially incurred an ADA violation. Finally, we maintain
that a CPMS official stated that a DOD Component originally offered RDT&E funds.
The CPMS official informed OIG DOD auditors that CPMS management rejected the



                                            10
DOD Component’s attempt to send RDT&E funds during a verbal discussion. Instead,
the DOD Component was notified that O&M funds were sufficient.


Recommendations, Management Comments, and Our
Response
A.1. We recommend the Under Secretary of Defense (Comptroller)/Chief Financial
Officer direct the Civilian Personnel Management Service to initiate preliminary
reviews to determine whether the improper use of Government funds for the
Enterprise Staffing Solution purchase resulted in Antideficiency Act violations or
other funding violations in accordance with DOD 7000.14-R, “Financial
Management Regulations.”

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments
The Deputy Chief Financial Officer, responding for the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, agreed. The Deputy Chief Financial Officer stated
that CPMS was directed to initiate a preliminary review on August 6, 2009. The
preliminary review is intended to determine whether ADA violations or other funding
violations resulted from the ESS purchases mentioned in the report.

Civilian Personnel Management Service Comments
Although not asked to comment, the Acting Director of CPMS agreed with the
recommendation. The Acting Director stated that coordination occurred with the
Comptroller’s office that led to the Executive Director of DHRA appointing an individual
to conduct a preliminary review to determine whether the improper use of Government
funds for the CPMS ESS resulted in ADA violations or other funding violations in
accordance with DOD 7000.14-R. The Acting Director also stated that a complete report
of the findings, including coordination by the Office of General Counsel, was to be
submitted to the Comptroller by September 21, 2009.

Our Response
Management comments are responsive. No further comments are necessary.

A.2. We recommend the Acting Director of the Civilian Personnel Management
Service require financial personnel to receive training that focuses on compliance
with the funding requirements included in DOD Financial Management Regulation,
volume 2A, chapter 1, “Budget Formulation and Presentation.” The training
should also emphasize the bona fide needs rule, purpose statute, and potential
Antideficiency Act violations.

Civilian Personnel Management Service Comments
The Acting Director agreed with the recommendation and stated that CPMS has
scheduled an Appropriations Law and ADA training for all of its key management
officials. Furthermore, CPMS will develop a plan to ensure that all financial personnel


                                           11
and key management officials receive on-going training to ensure they stay abreast of any
new changes in DOD Regulations.

Our Response
The Acting Director, CPMS, comments were responsive. No further comments are
required.




                                           12
Finding B. Acquisition of the DOD Enterprise
Staffing Solution Initiative
CPMS officials did not comply with DOD acquisition guidance when planning and
initiating the ESS project. Specifically, CPMS officials:

      did not obtain DOD Component Chief Information Officer confirmation of
       compliance with the CCA that is required for all mission-critical or mission-
       essential information technology systems;

      did not adequately perform an analysis of alternatives that justified the decision to
       use SaaS alternative for satisfying the ESS requirement;

      significantly understated the life cycle costs made available to the IRB that may
       have impacted the DBSMC certification decision; and

      did not document that the non-DOD contract was in the best interest of DOD.

This occurred because CPMS officials involved with the planning and initiation of ESS
misinterpreted the acquisition regulations and were not acquisition certified. CPMS did
not have any acquisition guidelines or procedures delineating the acquisition process
including oversight responsibilities. In addition, DOD has no specific guidance
addressing the acquisition of SaaS. As a result, CPMS officials had no assurance that the
ESS purchase was based on best value and whether the DBSMC would have certified the
project knowing the full extent of the costs.

Criteria

DOD Instruction 5000.2 and the Clinger-Cohen Act
DOD Instruction 5000.2, “Operation of the Defense Acquisition System,” provides
guidance for Defense technology projects and acquisition programs. The Instruction
states the milestone decision authority shall not enter into any phase that requires a
milestone approval for an acquisition program for a mission-essential system until the
Chief Information Officer confirms that the system is being developed in accordance with
Division E of Public Law 104-106, the Information Technology Management Reform
Act of 1996, known as the Clinger-Cohen Act (CCA). The CCA is a 1996 Federal law
designed to improve the way the Federal Government acquires, uses, and disposes of
information technology. The CCA provides a list of requirements for all IT acquisitions
that shall be satisfied before the award of a contract. See Appendix C for list of CCA
requirements.




                                            13
Acquisition Planning
CPMS officials did not adequately plan for the acquisition of the ESS. Further, they
failed to periodically re-evaluate the project even though costs were significantly higher
than originally anticipated. Acquisition-certified personnel were not involved in the
project and therefore, important acquisition steps were not taken. DOD cannot be sure
the ESS was the best alternative to replace its current human resources staffing tool.

Although not specifically addressed in DOD Instruction 5000.2, dated May 3, 2003, the
revised version, DOD Instruction 5000.2, dated December 12, 2008, now requires that
program managers be experienced and certified in acquisition management. CPMS
officials should require that their program managers comply with the current DOD
Instruction 5000.2, and are properly trained and certified in acquisition management.

Compliance With Clinger-Cohen Act and DOD Instruction 5000.2
The Under Secretary of Defense for Acquisition, Technology, and Logistics
memorandum, “Clinger-Cohen Act Compliance Policy,” March 8, 2002, states
“Compliance with the CCA is required for all IT [information technology] systems . . .
The basic requirements of the CCA that relate to the Department’s acquisition process
have been institutionalized in DOD Instruction 5000.2.” DOD Instruction 5000.2,
“Operation of the Defense Acquisition System,” May 12, 2003, 2 stated that DOD
Components shall not award a contract for the acquisition of a mission-critical or
mission-essential information technology system, at any level, until (1) the DOD
Component registers the system with the DOD Chief Information Officer, (2) the DOD
CIO determines the system has an appropriate information assurance strategy, and (3) the
DOD Component Chief Information Officer confirms that the system is being developed
in accordance with the CCA. Since the ESS is a mission-essential system, these
requirements are applicable to the ESS acquisition. CPMS officials, however, did not
comply with any of these three requirements prior to the award of the ESS contract.
According to the CPMS Acting Deputy Director, the ESS system was developed in
accordance with the CCA; however, confirmation by the DOD Component CIO, as
required for a mission-essential information technology system, was never obtained.

CPMS officials thought that because ESS is replacing Resumix, through an SaaS
contract, that ESS was therefore considered a service and not a system. As such, they
decided that DOD Instruction 5000.2 requirements did not apply to this acquisition.
However, DOD Instruction 5000.2 clearly states that it applies to all Defense technology
projects and acquisition programs. Furthermore, DOD Instruction 5000.2 includes a
section titled “Acquisition of Services” detailing the additional guidance for the
acquisition of information technology services. One of the requirements of the section is
that the acquisition shall be acquired by business arrangements that are in the best interest
of DOD. However, CPMS never determined that using OPM to acquire the ESS was in
the best interest of DOD. The section also requires the creation of mandatory procedures


2
 DoD Instruction 5000.2 was updated on December 8, 2008. CPMS officials performed acquisition
planning for the ESS under the prior issuance of the instruction.


                                                14
for the acquisition and a management review process that provides for a consistent
review and approval of the service acquisition. CPMS officials had no acquisition
procedures and no management review process for the ESS project that may have helped
CPMS to avoid some of the deficiencies noted during our audit. Finally, the section
requires a documented acquisition strategy that shall be updated as changes occur.
CPMS provided a Business Case Analysis (BCA) of the alternatives and a life-cycle
return on investment analysis on the selected alternative. However, the information on
both documents was never updated as changes occurred to show the actual numbers,
resulting in the award of the ESS contract as a SaaS based on inaccurate information.

On March 11, 2008, the Chief of System Management and Program Administration, HR-
BITS, sent an e-mail to the Executive Director, HR BITS, notifying her that the ESS
project is not compliant with DOD Instruction 5000.2 and the CCA. The e-mail states, “I
am providing this to you because, in my judgment, serious issues exist for the Enterprise
Staffing Solution under its current plan . . . . All of these figures break thresholds, such
that CPMS is in violation of DODD 5000.1 and DODI 5000.2.” The e-mail further states
“Moving out on a POM [Project Objective Memorandum] initiative of the magnitude of
over $200 million requires that the Program Manager has exercised due diligence in
accordance with the Clinger-Cohen Act . . . ” However, no actions were taken to correct
the issues noted in the e-mail. CPMS officials should have taken a more proactive
approach to determining the merits of the Chief of System Management and Program
Administration’s March 11, 2008, concerns and not needed a DOD Hotline complaint to
get them to take appropriate action. CPMS officials should ensure the ESS acquisition is
in compliance with all DOD Instruction 5000.2 and CCA requirements.

Analysis of Alternatives
In August 2007, CPMS officials issued a BCA to present a set of methodology, set of
alternatives, recommendation, and cost/benefit analysis for the replacement of the
Resumix system. The BCA considered four alternatives: custom design and development
of a system, with an estimated cost of $28.3 million; contract with OPM for the use of
USA Staffing system, with an estimated cost of $13.6 million; contract with a COTS
system, with an estimated cost of $22.1 million; or contract with a vendor to provide the
ESS as a service, with an estimated cost of $21.8 million. The BCA states that the last
two options, contract with a COTS system and contract with a vendor to provide the ESS
as a service were both viable, relatively low-risk options with equivalent costs. The first
two alternatives were either too high-risk or inadequate. The BCA concluded that the
selection of the contract with vendor would provide the best solution in meeting DOD
needs while remaining financially responsible.

The estimated cost in the BCA for the ESS as a service was $21.8 million over a 5-year
period. This cost was based on an independent government cost estimate (IGCE)
prepared by other CPMS officials. The IGCE states that the costs were based on market
research conducted in early 2007. However, CPMS officials were unable to provide the
market research used to develop the IGCE or any other documentation that would support
it. The IGCE was grossly inaccurate, as evidenced by the actual cost of the ESS contract
at $153 million for the 6-month pilot, base year, and 4 option years, as proposed by the


                                            15
vendor on October 11, 2007. According to the vendor proposal, recurring costs beyond
the first 5 years would run more than $30 million per year. The IGCE states that those
recurring costs would only be $4.5 million per year. The contract with a vendor
alternative would cost approximately $300 million over the first 10 years, whereas the
IGCE costs for that same period would have totaled approximately $44 million.

The BCA provided support for the SaaS alternative at a cost of $21.8 million. However,
the BCA did not provide support to the SaaS alternative at a cost of $153 million as
proposed by the vendor and accepted by CPMS. The BCA seemed to favor the contract
with a COTS system as the best value to the Government, when considering the actual
$153 million cost for the contract with a vendor alternative. If CPMS officials still
wanted to proceed with the contract with a vendor after realizing the actual costs of over
$153 million, they should have performed a new BCA to support that alternative as the
best choice for the Government. Based on the existing BCA, that is not the case. As a
result, DOD had no assurance it obtained the best value with the acquisition of the ESS as
a service. Further, DOD has not issued specific acquisition guidance on SaaS. Guidance
in this area may have helped CPMS officials in making decisions on the ESS acquisition.

DOD Investment Review Board
DOD has set up an IRB to review the system acquisitions. The IRB has the responsibility
for reviewing the planning, design, acquisition, development, deployment, operation,
maintenance, modernization, and project cost benefits and risks of DBS investments.
The IRB then determines whether or not to recommend certification of a system
development or modernization funding request. The recommendation is made to the
DBSMC, which has final certification approval authority for all defense business system
development/modernization investments. In June 2008, the DOD Business
Transformation Agency advised that ESS is a system.

Each DOD Component, in this case CPMS, is responsible for designating a Pre-
Certification Authority that is assigned accountability for the Component’s business
system investments. When a system’s package is uploaded to the IRB Portal for review
and certification, the Pre-Certification Authority validates that all information provided
has been reviewed and determined to be accurate.

On June 20, 2008, the CPMS Pre-Certification Authority submitted a memorandum for
the Human Resources Management IRB Chairperson, stating that the program manager
of the ESS initiative requests authority to obligate funds in the amount of $10.6 million
for the replacement of the Resumix recruiting system. The memorandum stated, “I have
performed a review of this initiative and have verified that the information contained in
the Defense Information Technology Portfolio Repository (DITPR) has been updated and
is complete and accurate as of June 20, 2008.” The memorandum further stated: “An
Economic Viability Analysis was completed and reviewed by the program’s cost
authority who concurs with the financial metrics recorded in DITPR and reflected on the
certification dashboard.” Based on her review, the Pre-Certification Authority
recommended that the Human Resources Management IRB certify to the DBSMC
approval of the request.


                                            16
The Pre-Certification Authority stated that a completed ESS project certification
dashboard and life-cycle return on investment analysis had been placed on the IRB Portal
for review by the IRB Chairperson. However, the return on investment posted on the
IRB portal included the costs per the IGCE, which were grossly understated. The IGCE
had costs for the ESS project of $4.5 million to $4.7 million for years 2010 through
2015. The return on investment failed to include the actual costs of the ESS project, and
thereby, may have influenced the certification review and decision by the IRB and
DBSMC. On August 8, 2008, the Pre-Certification Authority submitted another
memorandum to the IRB Chairperson, requesting authority to obligate an additional
$7 million ($3 million for FY 2008 and $4 million for FY 2009) for the replacement of
the Resumix system. The memorandum included the exact same language that was in the
June 20, 2008, memorandum. The return on investment posted to the IRB Portal still did
not include the actual costs. It was just updated to reflect the increase of $7 million to the
project. At the time of these memoranda (June 20, 2008, and August 8, 2008), CPMS
officials and the Pre-Certification Authority knew that the costs for the ESS were
approximately $25 million to $30 million for each of the years 2010 through 2015, as the
contractor provided CPMS a price estimate with those costs on October 11, 2007. Both
the Pre-Certification Authority and the IRB Chairperson agreed that providing the actual
return on investment life-cycle costs could have had an impact on the certification
decision. Staffing changes occurred at CPMS during this time frame, which may have
contributed to inaccurate information provided to the IRB. Acquisition-certified staff
may have recognized the issues and may have provided the updated information to ensure
the best decisions were being made.

Best Interest Determination
CPMS personnel did not follow DOD guidance when using OPM to acquire the ESS on
behalf of DOD. The Principal Deputy Under Secretary of Defense (Comptroller) and
Acting Under Secretary of Defense for Acquisition, Technology, and Logistics issued an
October 29, 2004, memorandum, “Proper Use of Non-DOD Contracts” (DOD October
29, 2004, memorandum). The memorandum directs Military Departments and Defense
agencies to establish procedures for reviewing and approving the use of non-DOD
contract vehicles when procuring supplies and services on or after January 1, 2005, for
amounts exceeding the simplified acquisition threshold. The procedures for assisted
acquisitions must include evaluating whether using a non-DOD contract is in the best
interest of DOD. Further, the October 16, 2006, Under Secretary of Defense
(Comptroller) memorandum, “Non-Economy Act Orders,” states “each requirement must
be evaluated in accordance with DOD Components’ procedures to ensure that non-
Economy Act orders are in the best interest of DOD.” 3

CPMS did not prepare a memorandum stating that it was in the best interest of the
government to use OPM. However, on August 28, 2007, CPMS requested an Army
contracting officer review of the proposal package to be submitted to OPM, as required

3
 Non-Economy Act Orders guidance is now covered in the DoD Financial Management Regulation,
volume 11A, chapter 18.


                                               17
by guidance. The Army contracting officer stated in an August 31, 2007, memorandum
that “the requirement has been reviewed and no areas of concern were found.” However,
the memorandum did not state or determine that using OPM for the ESS acquisition was
in the best interest of DOD. In addition, the requirement amount that was provided to the
Army contracting officer as part of the ESS package was $3.8 million, when the
approximate actual cost for the first year is $32 million. The Deputy Director, CPMS,
stated that CPMS officials decided to use OPM to acquire the ESS because she and the
deputy project manager had worked there previously and knew OPM had the contract.
CPMS officials did not comply with the best interest determination requirement, as they
did not determine that the use of OPM for the acquisition of the ESS was in the best
interest for DOD.


Civilian Personnel Management Service Acquisition
Oversight
CPMS management oversight of the ESS acquisition was lacking. CPMS had no local
guidance regarding staffing of significant acquisitions, delineating acquisition procedures
to be followed, including review and approval requirements for acquisitions. In addition,
program management officials involved in the ESS acquisition were not acquisition-
certified and there were no contracting personnel at CPMS. For example, originally, the
Director, CPMS, agreed that ESS was mission-essential but not designated as such. The
deputy project manager stated that the ESS acquisition is not considered mission-
essential because it is a pilot program. However, the ESS was registered as mission-
essential in the DOD Technology Portfolio Repository (DITPR) by August 2008. Non-
certified staff led to CPMS personnel making decisions without considering requirements
such as CCA compliance confirmation by the DOD Component Chief Information
Officer and not ensuring that use of OPM was in the best interest of DOD. Also, there is
no documentation of anyone questioning why initial costs in the business case analysis
were so wrong or whether another alternative should have been considered or used when
it was determined that the costs were seven times higher than originally estimated. No
local guidance and a lack of certified personnel contributed to the noncompliance with
DOD and Federal acquisition laws and regulations.

The lack of acquisition-certified personnel contributed to CPMS officials’ mis-
interpretation of acquisition laws and regulations. Having acquisition-certified
individuals and following a comprehensive acquisition policy that includes detailed
guidelines and procedures including oversight responsibilities and review and approval
requirements for planning and initiating acquisitions would help eliminate the acquisition
problems identified during this audit.




                                            18
Software as a Service Guidance
CPMS officials incorrectly assumed that SaaS did not constitute a system and, therefore,
the DOD Instruction 5000.2 and certification requirements did not apply to the ESS
acquisition. It was not until the DOD Hotline complaint that they determined through
their General Counsel that, although they were acquiring SaaS, it was still considered an
acquisition of a system and compliance with DOD Instruction 5000.2 was required.

SaaS is a relatively new approach to satisfying information technology needs within
DOD, and currently, there is no DOD guidance that addresses SaaS acquisitions.
Guidance needs to be developed to highlight this new area. The guidance needs to
address the requirements and proper procedures to be followed when acquiring SaaS.
Acquisition officials need to understand that although they may be acquiring information
technology as a service, it may still be considered a system, and all requirements for the
acquisition of an information technology system would apply. Further, SaaS has
drawbacks that need to be considered. The provider could go bankrupt. Once DOD
decides to use a vendor, there may be no other sources to provide the service or options
for substitutability. The vendor could dramatically increase the costs and DOD may have
no option but to continue with the current contractor until another contract could be
awarded, which could take considerable time. The provider could be sold and decide to
stop supporting the Federal Government after the current contract runs out. Finally, there
could be security issues with the data being processed. These types of issues need to be
considered and addressed when DOD uses SaaS.

The lack of acquisition guidance related to SaaS within the Government contributed to
CPMS officials not registering the mission-essential system with the DOD Chief
Information Officer prior to contract award, and not fully complying with
DOD Instruction 5000.2.

Conclusion
DOD officials should continue to develop innovative ways to procure and meet Defense
requirements. However, as CPMS officials identify new ways to meet human resource
requirements, they should seek guidance early in the process to ensure all laws and
regulations are being followed. For instance, consulting the General Counsel earlier
could have mitigated issues identified during the audit.

Further, CPMS officials need to develop acquisition guidelines and procedures that
include management oversight responsibilities and the review and approval process for
CPMS acquisitions. CPMS officials should also ensure that individuals involved in
making acquisition decisions are acquisition-certified so that laws and DOD regulations
are complied with. In addition, DOD officials need to develop guidance addressing the
acquisition of SaaS, so that some of the confusion noted during this audit with purchasing
SaaS can be avoided in the future.

Finally, CPMS officials must also ensure that all acquisition decisions are supported by
best value determinations that are accurate and current for the acquisition at hand.
Although CPMS had made a best value decision to purchase the ESS through SaaS, the


                                            19
best value decision was based on significantly lower costs than what was eventually
contracted for. When CPMS officials obtained the contractor’s bid, over $100 million
more than the IGCE, they should have stopped and re-evaluated the acquisition. Early in
the process, CPMS officials received cost proposals showing significant cost differences
when compared to the BCA costs, and a new analysis of alternatives should have been
completed to ensure DOD obtained the best value.

Management Comments on the Finding and Our
Response
Civilian Personnel Management Service Comments
The Acting Director provided comments for CPMS. First, the Acting Director did not
agree with the report statement that says that CPMS officials understated the life-cycle
cost of the project that may have impacted the certification decision. The Acting Director
stated CPMS officials received guidance from the Human Resources Management IRB
Chair to provide only the pilot cost, since no decision was made to continue the project
after the pilot phase. Second, the Acting Director wrote that the report incorrectly states
that CPMS took no action after being notified several times about problems with the ESS
project. The Acting Director added that documentation and e-mails supporting
management’s action to solve the ESS problems were provided to the DOD Inspector
General on July 7, 2009.

Our Response
We disagree with the Acting Director comments. The Human Resources Management
IRB Chair stated CPMS should have provided the actual estimate costs of the project, and
those costs could have impacted the decision on whether to certify the project. Although
CPMS did provide the estimate costs for the project, those costs were grossly
understated. Furthermore, an IRB official stated that the original package they received
for approval from CPMS did not say the ESS project was a pilot program. We also
disagree with the Acting Director comments that CPMS took action to solve the problems
noted by a CPMS official. While it is true the Acting Director provided some e-mails
and documentation, none of them support their position. All documentation provided is
dated in the period that the hotline complaint was made, showing CPMS officials took
action to solve the problems after the complaint was made.

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics issue specific guidance for the acquisition of
software as a service that will provide guidelines to help ensure acquisition
regulations are followed for purchases above the simplified acquisition threshold.




                                            20
Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics Service Comments
The Director, Defense Procurement and Acquisition Policy, Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics, did not agree. The
Director stated that the existing rules in DOD Instruction 5000.2 are sufficient for the
acquisition of SaaS and there is no need for special rules for this type of acquisition.

Our Response
We disagree with the Director’s comments. We maintain that specific guidance should
be developed for future SaaS acquisitions. SaaS is a new approach to acquiring the use
of systems that is evolving at a fast pace, and it appears that more DOD organizations
will continue to use this new type of service. Because of the innovative nature of the
SaaS, there is a lot of confusion whether DOD Instruction 5000.2 applies to it or not. In
the case of the ESS, CPMS initially determined that 5000.2 did not apply and did not
follow the guidance because officials thought they were contracting for a service, not a
system. Specific SaaS guidance could have helped the ESS acquisition to be a success.
The ESS project was cancelled on August 27, 2009, after approximately $9 million being
spent on the pilot. Accordingly, we request that the Director, Defense Procurement and
Acquisition Policy, reconsider the recommendation and provide comments on the final
report.

Civilian Personnel Management Service Comments
Although not required to comment, the Acting Director, CPMS, agreed. The Acting
Director stated that CPMS will assist the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics to develop guidance for the acquisitions of
software as a service.

Our Response
Management comments are responsive. No further comments are necessary.

B.2. We recommend that the Acting Director, Civilian Personnel Management
Service, staffs the Enterprise Staffing Solution project with acquisition-certified
personnel to ensure that DOD guidance and acquisition regulations are followed.

Civilian Personnel Management Service Comments
The Acting Director, CPMS, agreed. The Acting Director stated that for the ESS project,
CPMS will ensure the necessary training is provided. The Acting Director added CPMS
will ensure a mix of acquisition-certified personnel assigned to future projects. In
addition, positions requiring acquisition certifications will be opened.

Our Response
Management comments are responsive. No further comments are necessary.




                                             21
Appendix A. Scope and Methodology
We conducted this Defense Hotline-requested audit from January 2009 through July 2009
in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

This audit was performed in response to allegations made to the Defense Hotline. We
reviewed the acquisition process for ESS by meetings with CPMS officials to discuss the
details of the acquisition. CPMS personnel provided us with documentation for our
review and analysis. These acquisition documents, dated from August 2007 through
May 2009, included military interdepartmental purchase requests, interagency
agreements, BCA, the ESS Pilot Management Plan, Lifecycle Return on Investment
Analysis, Program Budget Decision, IGCE, vendor proposals, memoranda, e-mails, and
miscellaneous correspondence.

We interviewed personnel at CPMS and reviewed:

      interagency agreements between CPMS and OPM and contract actions to
       determine whether CPMS followed Public Law 108-375, “Ronald W. Reagan
       National Defense Authorization Act for Fiscal Year 2005”;
      military interdepartmental purchase requests and the DOD Financial Management
       Regulation to determined whether the correct appropriations were used to fund
       the Enterprise Staffing Solution project;
      the CPMS BCA, IGCE, CPMS e-mails, and CPMS memoranda to the IRB to
       determine whether CPMS managed the project in accordance with DOD
       Instruction 5000.2, “Operation of the Defense Acquisition System,” and the CCA;
       and
      the Army contracting officer memorandum and CPMS BCA to determine whether
       proper acquisition planning was performed according to DOD policy.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the Government Accountability Office and the Department of
Defense Inspector General have not issued any reports discussing CPMS.




                                           22
Appendix B. Allegations
The following three allegations were made to the Defense Hotline concerning the CPMS
acquisition of the ESS. Specifically:

      The information technology modernization effort is covered within the Human
       Resource Management domain of the Business Mission Area. Accordingly, the
       project is subject to the requirements of section 332, Public Law 108-375,
       “Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005.”
       The National Defense Authorization Act for FY 2005 requires DBSMC
       certification prior to the obligation of funds. The National Defense Authorization
       Act for FY 2005 further states that failure to obtain DBSMC certification prior to
       obligation of funds shall be treated as an ADA violation. CPMS did not receive
       certification for FY 2007 funds totaling $6 million.

      The information technology modernization effort to replace the existing Resumix
       system requires an evaluation of the ESS software. Therefore, RDT&E funds
       should have been used instead of O&M funds. An ADA violation may have
       occurred, yet CPMS leadership continues to request O&M funds.

      The ESS initiative is covered within 40 U.S.C. 11101 and 44 U.S.C. 3502, which
       give the definition of an information system. In addition, the ESS initiative is a
       service capability that is covered within the scope of DOD Directive 5000.1, “The
       Defense Acquisition System,” and DOD Instruction 5000.2, “Operation of the
       Defense Acquisition System.” Approval of a Program Objective Memorandum
       issue paper would make the initiative an acquisition category 1 [ACAT I]
       program. The program management team, who are not acquisition-certified, have
       ignored or violated multiple provisions of the Clinger-Cohen law.

We substantiated all three complainant allegations. Our review of the ESS project found
that CPMS officials did not adhere to the 2005 National Defense Authorization Act by
failing to obtain DBSMC certification prior to the obligation of FY 2007 and FY 2008
funds. CPMS personnel also incurred potential ADA violations of the purpose statute
and bona fide needs rule. CPMS used the wrong type of funds and award contracts with
prior year funds that were no longer available for new obligations. Finally, CCA basic
requirements that are relevant to the DOD acquisition process have been included within
DOD Instruction 5000.2. CPMS officials did not comply with CCA or DOD
Instruction 5000.2 due to the failure to register the system with the DOD Component
Chief Information Officer and obtain the DOD Chief Information Officer confirmation of
compliance with CCA for the mission-essential information technology system. The
requirements also state that the DOD Chief Information Officer must determine whether
the system has an appropriate information assurance strategy.

The mission-essential acquisition, however, did not meet the DOD Instruction 5000.2
dollar thresholds for acquisition category 1 [ACAT I] status.



                                           23
Appendix C. Clinger-Cohen Act Compliance
The following table lists the requirements related to the Clinger-Cohen Act of 1996 for
the acquisition of information technology.


        Review Area


        1. Make determination that the acquisition supports core, priority functions of
        the Department.


        2. Establish outcome-based performance measures linked to strategic goals.


        3. Redesign the processes that the system supports to reduce costs, improve
        effectiveness, and maximize the use of COTS technology.


        4. No private sector or Government source can better support the function.


        5. An Analysis of Alternatives has been conducted.

        6. An economic analysis has been conducted that includes a calculation of the
        return on investment; or for non-AIS programs, a Life-Cycle Cost Estimate has
        been conducted.

        7. There are clearly established measures and accountability for program
        progress.

        8. The acquisition is consistent with the Global Information Grid policies and
        architecture, to include relevant standards.

        9. The program has an information assurance strategy that is consistent with
        DOD policies, standards, and architectures, to include relevant standards.

        10. To the maximum extent practicable, modular contracting has been used, and
        the program is being implemented in phased, successive increments, each of
        which meets part of the mission need and delivers a measurable benefit,
        independent of future increments.

        11. The system being acquired is registered.



                                           24
Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                    Click to add JPEG file




                                   25
Office of the Under Secretary of Defense(Comptroller)/
Chief Financial Officer Comments




                    Click to add JPEG file




                                   26
Click to add JPEG file




               27
Civilian Personnel Management Service Comments




                  Click to add JPEG file




                                 28
Click to add JPEG file




               29
                           Final Report
                            Reference




                         Revised
                         Recommendation
                         Pg. 3


Click to add JPEG file




               30
Click to add JPEG file




               31
Click to add JPEG file




               32
